JW Gaming Development, LLC v. James, 778 Fed.Appx. 545 (2019)
RICO Bus.Disp.Guide 13,236

778 Fed.Appx. 545 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.
JW GAMING DEVELOPMENT, LLC, a California
limited liability company, Plaintiff-Appellee,
v.
Angela JAMES; Leona L. Williams; Lenora
Steele; Kathy Stallworth; Michelle Campbell;
Julian J. Maldonado; Donald Williams;
Veronica Timberlake; Cassandra Steele;
Jason E. Running Bear Steele; Andrew
Stevenson; Pinoleville Pomo Nation, a federallyrecognized Indian tribe, Defendants-Appellants.
No. 18-17008
|
Argued and Submitted August 7,
2019 San Francisco, California
|
FILED October 2, 2019
Attorneys and Law Firms
Tim J. Hennessy, Esquire, Attorney, Gregory Michael
Narvaez, Attorney, John M. Peebles, Esquire, Attorney,
Fredericks Peebles & Morgan LLP, Sacramento, CA, for
Plaintiff-Appellee
Rudy Verner, Attorney, Berg Hill Greenleaf & Ruscitti LLP,
Boulder, CO, Padraic McCoy, Attorney, Padraic I. McCoy,
P.C., Boulder, CO, for Defendants-Appellants
Appeal from the United States District Court for the Northern
District of California, William Horsley Orrick, District Judge,
Presiding, D.C. No. 3:18-cv-02669-WHO

Before: O'SCANNLAIN, SILER, * and NGUYEN, Circuit
Judges.

MEMORANDUM **
Several individual defendants (collectively the “tribal
defendants”) appeal the district court’s order denying their
motion to dismiss the claims against them on the basis of
sovereign immunity. Because the facts are known to the
parties, we repeat them only as necessary to explain our
decision.
The district court did not err in denying the tribal defendants’
motion to dismiss the fraud and RICO claims that JW Gaming
Development, LLC (“JW Gaming”) filed against them. Under
our “remedy-focused analysis,” the Tribe is not the real party
in interest with respect to such claims. Maxwell v. County of
San Diego, 708 F.3d 1075, 1088 (9th Cir. 2013). The claims
are explicitly alleged against the tribal defendants in their
individual capacities, and JW Gaming seeks to recover only
monetary damages on such claims. If JW Gaming prevails on
its claims against the tribal defendants, only they personally—
and not the Tribe—will be bound by the judgment. Any relief
ordered on the claims alleged against the tribal defendants
will not, as a matter of law, “expend itself on the public
treasury or domain,” will not “interfere with the [Tribe’s]
public administration,” and will not “restrain the [Tribe] from
acting, or ... compel it to act.” Id. (internal quotation marks
omitted). Accordingly, such claims are not shielded by the
Tribe’s sovereign immunity. See Lewis v. Clarke, ––– U.S.
––––, 137 S. Ct. 1285, 1290–92, 197 L.Ed.2d 631 (2017);
Pistor v. Garcia, 791 F.3d 1104, 1112–14 (9th Cir. 2015);
*546 Maxwell, 708 F.3d at 1088–90. 1
AFFIRMED.
All Citations
778 Fed.Appx. 545 (Mem), RICO Bus.Disp.Guide 13,236

Footnotes

*
**

The Honorable Eugene E. Siler, United States Circuit Judge for the U.S. Court of Appeals for the Sixth Circuit, sitting
by designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT A 1

JW Gaming Development, LLC v. James, 778 Fed.Appx. 545 (2019)
RICO Bus.Disp.Guide 13,236

1

This is true even though the tribal defendants have been sued for actions they allegedly took in the course of their official
duties and even if the Tribe chooses to indemnify the tribal defendants for any adverse judgment against them. See
Lewis, 137 S. Ct. at 1288, 1292–94; Pistor, 791 F.3d at 1112; Maxwell, 708 F.3d at 1088–90.

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT A 2

